<html>
<title> - R&D TO SUPPORT HEALTHY AIR TRAVEL. IN THE COVID-19 ERA AND BEYOND</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


                   R&D TO SUPPORT HEALTHY AIR TRAVEL
                     IN THE COVID-19 ERA AND BEYOND

=======================================================================

                                HEARING

                               BEFORE THE

                 SUBCOMMITTEE ON SPACE AND AERONAUTICS

                                 OF THE

                      COMMITTEE ON SCIENCE, SPACE,
                             AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             JUNE 23, 2020

                               __________

                           Serial No. 116-75

                               __________

 Printed for the use of the Committee on Science, Space, and Technology
 
 [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


       Available via the World Wide Web: http://science.house.gov       
       
                                __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
40-649PDF                  WASHINGTON : 2021                     
          
--------------------------------------------------------------------------------------       
       
       

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

             HON. EDDIE BERNICE JOHNSON, Texas, Chairwoman
ZOE LOFGREN, California              FRANK D. LUCAS, Oklahoma, 
DANIEL LIPINSKI, Illinois                Ranking Member
SUZANNE BONAMICI, Oregon             MO BROOKS, Alabama
AMI BERA, California,                BILL POSEY, Florida
    Vice Chair                       RANDY WEBER, Texas
LIZZIE FLETCHER, Texas               BRIAN BABIN, Texas
HALEY STEVENS, Michigan              ANDY BIGGS, Arizona
KENDRA HORN, Oklahoma                ROGER MARSHALL, Kansas
MIKIE SHERRILL, New Jersey           RALPH NORMAN, South Carolina
BRAD SHERMAN, California             MICHAEL CLOUD, Texas
STEVE COHEN, Tennessee               TROY BALDERSON, Ohio
JERRY McNERNEY, California           PETE OLSON, Texas
ED PERLMUTTER, Colorado              ANTHONY GONZALEZ, Ohio
PAUL TONKO, New York                 MICHAEL WALTZ, Florida
BILL FOSTER, Illinois                JIM BAIRD, Indiana
DON BEYER, Virginia                  FRANCIS ROONEY, Florida
CHARLIE CRIST, Florida               GREGORY F. MURPHY, North Carolina
SEAN CASTEN, Illinois                MIKE GARCIA, California
BEN McADAMS, Utah                    THOMAS P. TIFFANY, Wisconsin
JENNIFER WEXTON, Virginia
CONOR LAMB, Pennsylvania
                                 ------                                

                 Subcommittee on Space and Aeronautics

                 HON. KENDRA HORN, Oklahoma, Chairwoman
ZOE LOFGREN, California              BRIAN BABIN, Texas, Ranking Member
AMI BERA, California                 MO BROOKS, Alabama
ED PERLMUTTER, Colorado              BILL POSEY, Florida
DON BEYER, Virginia                  MICHAEL WALTZ, Florida
CHARLIE CRIST, Florida               MIKE GARCIA, California
JENNIFER WEXTON, Virginia
                         
                         
                         C  O  N  T  E  N  T  S

                             June 23, 2020

                                                                   Page

Hearing Charter..................................................     2

                           Opening Statements

Statement by Representative Kendra Horn, Chairwoman, Subcommittee 
  on Space and Aeronautics, Committee on Science, Space, and 
  Technology, U.S. House of Representatives......................     7
    Written Statement............................................     8

Statement by Representative Brian Babin, Ranking Member, 
  Subcommittee on Space and Aeronautics, Committee on Science, 
  Space, and Technology, U.S. House of Representatives...........     9
    Written Statement............................................    10

Statement by Representative Eddie Bernice Johnson, Chairwoman, 
  Committee on Science, Space, and Technology, U.S. House of 
  Representatives................................................    11
    Written Statement............................................    12

Statement by Representative Frank D. Lucas, Ranking Member, 
  Committee on Science, Space, and Technology, U.S. House of 
  Representatives................................................    12

                               Witnesses:

Ms. Heather Krause, Director, Physical Infrastructure Issues, 
  Government Accountability Office
    Oral Statement...............................................    14
    Written Statement............................................    17

Dr. Byron Jones, P.E., Professor, Alan Levin Department of 
  Mechanical and Nuclear Engineering; Director, National Gas 
  Machinery Laboratory, Kansas State University
    Oral Statement...............................................    34
    Written Statement............................................    36

Dr. Vicki Hertzberg, Professor and Director, Center for Data 
  Science, Nell Hodgson Woodruff School of Nursing, Emory 
  University
    Oral Statement...............................................    40
    Written Statement............................................    42

Discussion.......................................................    55

             Appendix I: Answers to Post-Hearing Questions

Ms. Heather Krause, Director, Physical Infrastructure Issues, 
  Government Accountability Office...............................    72

Dr. Byron Jones, P.E., Professor, Alan Levin Department of 
  Mechanical and Nuclear Engineering; Director, National Gas 
  Machinery Laboratory, Kansas State University..................    84

Dr. Vicki Hertzberg, Professor and Director, Center for Data 
  Science, Nell Hodgson Woodruff School of Nursing, Emory 
  University.....................................................    90

            Appendix II: Additional Material for the Record

Letter submitted by Representative Brian Babin, Ranking Member, 
  Subcommittee on Space and Aeronautics, Committee on Science, 
  Space, and Technology, U.S. House of Representatives...........    94

Letter and report submitted by Representative Bill Foster, 
  Committee on Science, Space, and Technology, U.S. House of 
  Representatives................................................    96

 
                   R&D TO SUPPORT HEALTHY AIR TRAVEL.
                     IN THE COVID-19 ERA AND BEYOND

                              ----------                              


                         TUESDAY, JUNE 23, 2020

                  House of Representatives,
             Subcommittee on Space and Aeronautics,
               Committee on Science, Space, and Technology,
                                                   Washington, D.C.

     The Subcommittee met, pursuant to notice, at 11:32 a.m., 
via Webex, Hon. Kendra Horn [Chairwoman of the Subcommittee] 
presiding.
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

     Chairwoman Horn.  I'll go ahead and get started. So, this 
hearing will come to order. Without objection, the Chair is 
authorized to declare a recess at any time.
     And before I deliver my opening remarks, I want to make 
note that, today, the Committee is meeting virtually, and in 
this virtual format, I want to begin with a couple of reminders 
to the Members and participants about the conduct of this 
hearing. First, the Members should keep their video feed on as 
long as they are present in the hearing to be counted, and 
Members are responsible for your own microphones, so please 
keep your microphones muted unless you are speaking.
     And finally, if Members have documents they wish to submit 
for the record, please email them to the Committee Clerk, whose 
email address was circulated prior to the hearing. And thank 
you all for joining us.
     So, good morning, everyone, and welcome to today's remote 
hearing on R&D (research and development) support healthy air 
travel--to support healthy air travel in the COVID-19 era and 
beyond. I'd like to welcome our witnesses and thank you all for 
being here.
     Commercial air travel is an essential part of the fabric 
of our society and economy. It plays a critical role in 
business, commerce, education, travel, and tourism. We take for 
granted that we can now easily travel vast distances by air and 
reach destinations that were once reserved for imagination. In 
just over a century, air travel moved from our imagination to a 
reality that has changed the way we interact with each other 
and connect with the world. Our dependence on air travel will 
only continue to grow.
     In 2018, the International Air Transport Association 
projected that global air travel will nearly double in 20 
years, from 4 billion to more than 7 billion annual passengers. 
As with many other industries, the COVID-19 pandemic has 
dramatically impacted commercial air travel. In the United 
States alone, passenger air travel was down an estimated 96 
percent in April 2020 from April 2019 nearly a year before. 
Worldwide, the air travel industry is projected to lose more 
than $300 billion in gross operating revenues this year. And 
the ripple effects of this shift extend well beyond the 
airlines, to travel and tourism, business, supply chains, and 
much more.
     While Congress has provided financial support to the 
airline industry through loan guarantees, workforce support, 
and tax relief in the CARES Act, full recovery also requires 
ensuring safety and re-establishing public confidence as we 
continue to face the risks of COVID-19. To that end, airlines 
are taking concrete and proactive steps to protect crew and 
passengers through increased cleaning, modified boarding 
procedures, and requiring the use of masks by passenger and 
crew. These are positive steps, but are they enough to ensure 
safety and reestablish trust?
     Additionally, with each airline determining its own 
approach, individuals are left on their own about what is safe, 
and that's a confusing place to be. That's why today's 
discussion is so important. It's about understanding what we 
know, what we don't know, and what we need to know to reduce 
confusion and provide clear, science-based guidance on ensuring 
the safety of passengers and crew during this and any future 
pandemic.
     Because of the silent threat of asymptomatic or 
presymptomatic individuals remains, Federal public health 
agencies such as the CDC (Centers for Disease Control and 
Prevention) provide guidance and recommendations about 
precautions and actions to reduce the spread of COVID-19. 
However, agency roles and responsibilities for determining the 
risk of virus transmission on aircraft and issuing guidance 
about specific mitigation measures are unclear. The FAA 
(Federal Aviation Administration) has conducted research on 
cabin airflow and aircraft environmental control systems in the 
cabin. What does that research tell us about mitigating any 
risk of COVID transmission?
     As a lifelong Girl Scout, I know the importance of being 
prepared. The threat of COVID-19 demands a national response. 
That's why we also need to examine the status of planning--for 
the Federal Government, for the airlines, and for the traveling 
public--so that we and the industry aren't caught off guard 
with the threat of any future pandemics. Further, we need to 
examine our aeronautics and aviation R&D plans, the extent to 
which they include relevant research priorities and unique 
experiences such as healthcare specialists and scientists to 
deal with the mitigating--mitigating the risks of novel 
viruses, and how R&D can inform our national plans.
     In June 2016--June 16, 2020, article, the President of the 
National Academy of Sciences wrote about the coronavirus 
pandemic. She noted the need for ``actionable science to inform 
rapid decisionmaking,'' ``strategic science to inform long-term 
planning,'' and ``irreplaceable science to understand what 
works.'' Today's conversation will consider what research has 
been done, what research needs to be done, and what further 
actions need to be taken to understand and mitigate the risks 
of virus transmission through air travel. I can't think of a 
better way to frame our discussion on R&D to help ensure the 
resiliency of our air travel system during the COVID-19 era and 
beyond. Thank you.
     [The prepared statement of Chairwoman Horn follows:]

    Good morning, and welcome to today's remote hearing on 
``R&D to Support Healthy Air Travel in the COVID-19 Era and 
Beyond.'' I'd like to welcome our witnesses and thank you for 
being here.
    Commercial air travel is an essential part of the fabric of 
our society and economy. It plays a critical role in business, 
commerce, education, travel, and tourism. We take for granted 
that we can now easily travel vast distances by air and reach 
destinations that were once beyond imagination. In just over a 
century, air travel moved from our imagination to reality that 
has changed the way we interact with each other and connect 
with the world. Our dependence on air travel will only continue 
to grow. In 2018, the International Air Transport Association 
projected that global air travel will nearly double in 20 
years, from 4 billion to more than 7 billion annual passengers.
    As with many other industries, the COVID-19 pandemic has 
dramatically impacted commercial air travel. In the U.S. alone, 
passenger air travel was down an estimated 96% in April 2020 
from April 2019. Worldwide, the air travel industry is 
projected to lose more than $300 billion in gross operating 
revenues this year. And the ripple effects of this shift extend 
well beyond airlines, to travel and tourism, business, supply 
chains and much more.
    While Congress has provided financial support to the 
airline industry through loan guarantees, workforce support, 
and tax relief in the CARES Act, full recovery also requires 
ensuring safety and re-establishing public confidence as we 
continue to face the risks of COVID-19.
    To that end, airlines are taking concrete and proactive 
steps to protect crew and passengers through increased 
cleaning, modified boarding procedures, and requiring the use 
of masks by passengers and crew. These are positive steps, but 
are they enough to ensure safety and reestablish trust? 
Additionally, with each airline determining its own approach, 
individuals are on their own about what is safe. That's a 
confusing place to be.
    That's why today's discussion is so important. It's about 
understanding what we know, what we don't know, and what we 
need to know to reduce confusion and provide clear and science-
based guidance on ensuring the safety of passengers and crew 
during this and any future pandemic. Because the silent threat 
of asymptomatic or presymptomatic individuals remains.
    Federal public health agencies such as the CDC provide 
guidance and recommendations about precautions and actions to 
reduce the spread of COVID-19. However, agency roles and 
responsibilities for determining the risk of virus transmission 
on an aircraft and issuing guidance about specific mitigation 
measures are unclear. The FAA has conducted research on cabin 
air flow and aircraft environmental control systems in the 
cabin. What does that research tell us about mitigating any 
risks of COVID transmission?
    And as a lifelong Girl Scout, I know the importance of 
being prepared. The threat of COVID-19 demands a national 
response. That's why we also need to examine the status of 
planning--for the Federal government, for the airlines, and for 
the traveling public--so that we and the industry aren't caught 
off guard with the threat of any future pandemics. Further, we 
need to examine our aeronautics and aviation R&D plans, the 
extent to which they include relevant research priorities and 
unique experience such as health care specialists and 
scientists to deal with mitigating the risks of novel viruses, 
and how that R&D can inform national plans.
    In a June 16, 2020 article, the President of the National 
Academy of Sciences wrote about the coronavirus pandemic. She 
noted the need for ``actionable science to inform rapid 
decisionmaking'', ``strategic-science to inform long-term 
planning,'' and ``irreplaceable science to understand what 
works.'' Today's conversation will consider what research has 
been done, what research needs to be done, and what further 
actions need to be taken to understand and mitigate the risks 
of virus transmission through air travel. I can't think of a 
better way to frame our discussion on R&D to help ensure the 
resiliency of our air travel system during the COVID-19 era and 
beyond.
    Thank you.

     Chairwoman Horn.  And the Chair now recognizes Ranking 
Member Mr. Babin for an opening statement. Mr. Babin?
     Mr. Babin.  Thank you, Madam Chair. I appreciate you and 
glad to be with you virtually this afternoon.
     The COVID-19 pandemic has touched virtually every aspect 
of our lives. Families are self-isolating and limiting in-
person contact with friends and family. Many workplaces have 
fundamentally restructured in response to this virus. Our 
economy and employment levels are challenged as we attempt to 
protect our public health.
     While industries like restaurants and entertainment were 
asked to sacrifice profits and solvency for the greater good, 
other sectors like health care and grocers were asked to accept 
greater risks. The aerospace industry was asked to span these 
two different paradigms. On the one hand, air travel was 
significantly curtailed in order to prevent the spread of the 
disease. On the other hand, transportation, including air 
travel, is considered an essential function to our society. 
This places passengers, airlines, and the country in a 
precarious position of continuing operations in the face of not 
only health risks, but also risks to the overall viability of 
the companies who are operating at a fraction of their normal 
operating capacity.
     According to recent press reports, airlines are operating 
at between 15 and 17 percent capacity compared to last year. At 
the same time, private jet flights have surged 70 percent, but 
this doesn't do anything to help most Americans. Polling done 
recently by the International Air Transportation Association 
indicated that only 45 percent of the population was willing to 
fly within one or two months of restrictions being lifted. This 
does not bode well for an industry that our Nation depends upon 
so heavily.
     For this reason, it is crucial to understand the health 
risks posed by airline travel as accurately as possible. 
Research into how the virus propagates in an aircraft cabin via 
airborne or surface transmission is the start. Characterizing 
that environment will then allow airlines, aircraft 
manufacturers, airports, government agencies, and the public to 
develop technologies and processes to mitigate those risks. 
HEPA (high-efficiency particulate airfilters), ultraviolet (UV) 
lights, antimicrobial surface coating and treatments, increased 
cleaning protocols, passenger screenings, masks, social 
distancing, and limited movement in the cabin for restroom 
access and service carts are all options that are being 
considered.
     But all of these options are traded against other 
considerations such as power, weight, maintenance, cabin 
pressure, comfort, certification, and, not least, cost. They 
must also demonstrate efficacy. At the end of the day, the best 
way to stay safe is to stay home. Any option to fly comes with 
some element of risk. One could make the argument that the risk 
of driving to and from the airport, walking through the 
airport, and traveling on buses, tram cars, and so on are far 
riskier than the actual flight. This may not be true, depending 
on whether you have a preexisting condition or being a member 
of a vulnerable population. Still, it does illustrate that the 
aircraft is just one of the elements that we have to address.
     It is the responsibility of our agencies, our legislature, 
our industry, and our public to find the right balance of risk. 
That balance may change as time goes by. Strict controls put in 
place initially to ``flatten the curve'' may not be appropriate 
in the long term. Conversely, controls may need to be 
reinstated over time if new information is presented. Science 
will characterize and inform these risks and decisions.
     While other factors will undoubtedly play a role in final 
decisions, understanding the air travel environment is the very 
first step. This will require an assessment of a variety of 
disciplines such as computational fluid dynamics, statistics 
and modeling, epidemiology, sociology and psychology, 
chemistry, biology, and many more. This is certainly not an 
easy task, but it is not unachievable.
     It is often said that these are unprecedented times, but 
we have faced similar health challenges before. I am very 
confident we can come through this stronger and more resilient 
than ever. The aerospace industry and our scientific, 
technical, and healthcare systems are absolutely second-to-
none.
     I look forward to hearing from our witnesses today, and I 
yield back.
     [The prepared statement of Mr. Babin follows:]

    The COVID-19 pandemic has touched virtually every aspect of 
our lives. Families are self-isolating and limiting in-person 
contact with friends and family. Many workplaces have 
fundamentally restructured in response to the virus. Our 
economy and employment levels are challenged as we attempt to 
protect public health.
    While industries like restaurants and entertainment were 
asked to sacrifice profits and solvency for the greater good, 
other sectors like health care and grocers were asked to accept 
greater risks. The aerospace industry was asked to span these 
two different paradigms. On the one hand, air travel was 
significantly curtailed in order to prevent the spread of the 
disease. On the other hand, transportation, including air 
travel, is considered an essential function in our society. 
This places passengers, airlines, and the country in the 
precarious position of continuing operations in the face of not 
only health risks, but also risks to the overall viability of 
the companies who are operating at a fraction of their normal 
operating capacity.
    According to recent press reports, airlines are operating 
at between 15 and 17 percent capacity compared to last year. At 
the same time, private jet flights have surged 70 percent, but 
this doesn't do anything to help most Americans. Polling done 
recently by the International Air Transportation Association 
indicated that only 45 percent of the population was willing to 
fly within one or two months of restrictions being lifted. This 
does not bode well for an industry that our nation depends upon 
so heavily.
    For this reason, it is crucial to understand the health 
risks posed by airline travel as accurately as possible. 
Research into how the virus propagates in an aircraft cabin via 
airborne or surface transmission is the start. Characterizing 
that environment will then allow airlines, aircraft 
manufacturers, airports, government agencies, and the public to 
develop technologies and processes to mitigate those risks. 
HEPA filters, ultraviolet lights, antimicrobial surface coating 
and treatments, increased cleaning protocols, passenger 
screenings, masks, social distancing, and limited movement in 
the cabin for restroom access and service carts are all options 
being considered.
    But all of these options are traded against other 
considerations such as power, weight, maintenance, cabin 
pressure, comfort, certification, and cost. They must also 
demonstrate efficacy. At the end of the day, the best way to 
stay safe is to stay home. Any option to fly comes with some 
element of risk. One could make the argument that the risk of 
driving to and from the airport, walking through the airport, 
and traveling on buses and tram cars are far riskier than the 
actual flight. This may not be true, depending on whether you 
have a preexisting condition or are a member of a vulnerable 
population. Still, it does illustrate that the aircraft is just 
one of the elements that we have to address.
    It is the responsibility of our agencies, our legislature, 
our industry, and our public to find the right balance of risk. 
That balance may change as time goes by. Strict controls put in 
place initially to ``flatten the curve'' may not be appropriate 
in the long term. Conversely, controls may need to be 
reinstated over time if new information is presented. Science 
will characterize and inform these risks and decisions. While 
other factors will undoubtedly play a role in final decisions, 
understanding the air travel environment is the first step. 
This will require an assessment of a variety of disciplines 
such as computational fluid dynamics, statistics and modeling, 
epidemiology, sociology and psychology, chemistry, biology, and 
many more. This is certainly not an easy task, but it is not 
unachievable.
    It is often said that these are unprecedented times, but we 
have faced similar health challenges before. I am confident we 
can come through this stronger and more resilient than ever. 
The aerospace industry and our scientific, technical, and 
health care systems are second-to-none.
    I look forward to hearing from our witnesses today and 
yield back.

     Mr. Babin.  But I would also ask for unanimous consent, 
Madam Chair, that a letter from the Airlines for America (A4A) 
be added to the record. I yield back.
     Chairwoman Horn.  Without objection, it'll be added to the 
record. Thank you. Thank you, Mr. Babin.
     The Chair now recognizes the Chairwoman of the Full 
Committee, Ms. Johnson, for an opening statement.
     Chairwoman Johnson.  I want to express my appreciation to 
Chairwoman Horn for holding this hearing and really make a 
special thank you for the witnesses for appearing before the 
Subcommittee today.
     The aviation system is both an important contributor to 
the U.S. economy and an important factor in the national and 
global response to a communicable disease outbreak. At the 
threat of--as the threat of COVID-19 continues, it is critical 
for the health and safety of flight crews, airport employees, 
and the flying public that science-based policies, practices, 
and regulations are put in place to reduce the risk of further 
spread of the virus. Research and development must be part of 
the solution.
     Congress has been attentive to public health concerns on 
aircraft, paying particular attention to the issue of cabin air 
quality. While researchers have learned about the airplane 
cabin air circulation and the spread of communicable disease in 
aircraft, many questions remain. Today's hearing will inform us 
on the role of R&D in understanding and mitigating the risk of 
virus transmission through air travel. I also look forward to 
hearing from our witnesses about how the research is being 
translated to operational solutions because the airlines, crew, 
and the flying public really need clear information.
     The coronavirus is a national and global crisis. Yet, 
despite international obligations and recommendations from GAO 
(Government Accountability Office), we continue to lack a 
national preparedness plan to address the threat of 
communicable disease transmission through travel. That is 
troubling, given the devastating toll that the coronavirus has 
taken on airlines and so many other industries. We need to be 
prepared to avoid repeating the same mistakes with our future 
pandemics.
     I continue to be proud of how the research community and 
our frontline workers like those in the aviation community 
continue to rise to the ongoing challenge of COVID-19. I look 
forward to the--hearing from our witnesses about how R&D can be 
part of the solution to healthy air travel during this COVID-19 
and into the future. I thank you and yield back.
     [The prepared statement of Chairwoman Johnson follows:]

    Good morning. Thank you, Chairwoman Horn, for holding this 
hearing, and thank you to our witnesses for appearing before 
the Subcommittee today. The aviation system is both an 
important contributor to the U.S. economy and an important 
factor in the national and global response to a communicable 
disease outbreak. As the threat of COVID-19 continues, it is 
critical for the health and safety of flight crews, airport 
employees, and the flying public that science based policies, 
practices, and regulations are put in place to reduce the risk 
of further spread of the virus. Research and development must 
be part of the solution.
    Congress has been attentive to public health concerns on 
aircraft, paying particular attention to the issue of cabin air 
quality. While researchers have learned about airplane cabin 
air circulation and the spread of communicable disease in 
aircraft, many questions remain.
    Today's hearing will inform us on the role of R&D in 
understanding and mitigating the risk of virus transmission 
through air travel. I also look forward to hearing from our 
witnesses about how the research is being translated to 
operational solutions, because the airlines, crew, and the 
flying public need clear information.
    The coronavirus is a national and global crisis. Yet, 
despite international obligations and recommendations from GAO, 
we continue to lack a national preparedness plan to address the 
threat of communicable disease transmission through air travel. 
That's troubling, given the devastating toll that the 
coronavirus has taken on airlines and so many other industries. 
We need to be prepared to avoid repeating the same mistakes 
with any future pandemics.
    I continue to be proud of how the research community and 
our frontline workers like those in the aviation community 
continue to rise to the ongoing challenge of COVID-19. I look 
forward to hearing from our witnesses about how R&D can be part 
of the solution to healthy air travel during COVID-19 and into 
the future.
    Thank you, and I yield back.

     Chairwoman Horn.  Thank you, Chairwoman Johnson.
     The Chair now recognizes Ranking Member Lucas of the Full 
Committee for an opening statement. Mr. Lucas?
     Mr. Lucas.  Thank you, Madam Chair and Ranking Member of 
the Subcommittee and Chairwoman Eddie Bernice Johnson.
     I can think of no more timely or important hearing than 
the topics and subject matter we're covering today, examining 
the status of R&D as it relates to supporting healthy air 
travel.
     As we heard in the hearing earlier this year, and addition 
to COVID-19, there are potentially one million-plus pathogens 
that exist in the wild, so the efforts that we apply to address 
and deal with the struggles we have right now, whether it's 
COVID-19 or other things, are more important to the future of 
air travel than I think we could even possibly imagine.
     Whether it is the health of our--each of us individually, 
our families, or has COVID-19 has demonstrated, the world, the 
issues discussed today have to be addressed in a thoughtful 
manner that will help move everything forward. We didn't just 
have trouble starting with this plague, but it is a reflection 
of struggles we've had for decades.
     I very much appreciate the Chair and the Ranking Member 
for holding this hearing. I look forward to the witness's 
comments, and let's work together to make sure the lives of our 
constituents are safer and more productive as a result of this. 
Yield back, Madam Chair.
     Chairwoman Horn.  Thank you, Mr. Lucas. And thank you 
again to the witnesses.
     At this point if there are Members who wish to submit 
additional opening statements, your statements will be added to 
the record at this point.
     At this time, I'd like to introduce our witnesses for this 
important hearing today. Our first witness is Ms. Heather 
Krause, Director of the Government Accountability Office 
Physical Infrastructure Team. The Physical Infrastructure Team 
assists Congress and Federal agencies to address challenges 
within the U.S. infrastructure, including transportation 
systems. Since joining GAO in 2003, Ms. Krause has been an 
expert on the safety and operations of the National Airspace 
System. Ms. Krause received a bachelor of arts degree in 
political science from the University of Minnesota Duluth and a 
master's degree in public policy from the University of 
Minnesota. Welcome, Ms. Krause.
     Our second witness today is Dr. Byron Jones. At this time, 
I would like to recognize Congressman Marshall for an 
introduction of Dr. Jones. Mr. Marshall, you are recognized.
     Mr. Marshall.  All right. Good morning, Chairwoman Horn 
and my good friend Ranking Member Babin. Hopefully, you got a 
good connection with me. I'm running around the State of Kansas 
right now, but I did not want to miss a chance to introduce a 
fellow wildcat from the K State University.
     Dr. Byron Jones is the Director of the National Gas 
Machinery Laboratory at the Kansas State University located in 
beautiful Manhattan, Kansas. He's a long-standing member of K 
State's faculty. He served as the Associate Dean for Research 
at K State's College of Engineering--by the way, I might add, 
one of the top engineering programs in the country--and serves 
as the Head of Mechanical and Nuclear Engineering and is 
Director of the Institute for Environmental Research.
     His current research areas include aircraft cabin air 
quality, aircraft environmental control systems, 
turbomachinery, and aircraft bleed air contamination. Wow. He 
serves as Technical Director of the FAA Air Transportation 
Center of Excellence for Airliner Cabin Environment Research 
and has chaired the development of the original ASHRAE 
(American Society of Heating, Refrigerating and Air-
Conditioning Engineers) standard 161 air quality and commercial 
aircraft.
     He has a bachelor's degree, of course, from Kansas State 
University. Somehow we let him slip down to Oklahoma State 
University (OSU) for his M.S. and Ph.D. from Oklahoma State 
University and all in mechanical engineering. He's a licensed 
professional engineer, of course, and a licensed commercial 
pilot, wow, so that brings some substance to the discussion 
today.
     He brings a wealth of knowledge on this topic and, again, 
welcome to Dr. Byron Jones from Kansas State University, the 
home of the fighting wildcats.
     Chairwoman Horn.  Thank you, Mr. Marshall. And of course I 
would be remiss--Ranking Member Lucas and I always have to 
celebrate all of the amazing Oklahomans that we have and 
spending time at OSU absolutely is included in that. I would 
venture to guess the Ranking Member agrees with me there.
     So, our third witness today is Dr. Vicki Hertzberg, 
Professor of the Nell Hodgson Woodruff School of Nursing and 
Director of--at the Center for Nursing Data Science at both 
Emory--both at Emory University. Professor Hertzberg is an 
internationally recognized expert on big data and its impact on 
health care. She has led research efforts in social contact and 
disease transmission in densely populated indoor spaces, 
including emergency rooms and aircraft cabins. Professor 
Hertzberg received a bachelor of science degree in mathematics 
and statistics and a doctoral degree in biomathematics, health 
statistics track, from Miami University in Ohio. Welcome, Dr. 
Hertzberg.
     As our witnesses--each of you should know that you will 
each have five minutes for your spoken testimony. Your written 
testimony will be included for the record in the hearing. When 
you've completed your spoken testimony, we will begin with 
questions, and each Member will have five minutes to question 
the panel. We have a timer here that you should be able to see 
on your screen, and I will notify you as time is up. We will 
begin today with Ms. Krause.
     Ms. Krause, you're recognized.

           TESTIMONY OF MS. HEATHER KRAUSE, DIRECTOR,

                 PHYSICAL INFRASTRUCTURE ISSUES,

                GOVERNMENT ACCOUNTABILITY OFFICE

     Ms. Krause.  Thank you. Chairwoman Horn, Chairwoman 
Johnson, Ranking Member Babin, and Ranking Member Lucas and 
Members of the Subcommittee, thank you for the opportunity to 
discuss our work on reducing the risk of transmitting 
communicable disease through the aviation sector.
     Air travel more than any other mode of transportation 
creates the potential for infected persons to move quickly from 
one part of the world to another. Air travel greatly aided and 
accelerated the global transmission of COVID-19, which is 
having profound effects around the world. In light of the 
resulting pandemic and warnings about the risk of air travel, 
as noted earlier, U.S. passenger airline traffic fell 
dramatically, dropping 96 percent in April 2020 as compared to 
a year ago.
     COVID-19 is only the latest communicable disease to raise 
concerns about the spread of contagion through air travel. 
Since 2002, there have been six major public health threats 
with global ramifications, including SARS (severe acute 
respiratory syndrome) in 2003 and the Ebola virus in 2014. 
Ensuring that the United States is prepared to respond to 
disease threats from air travel and conducting the necessary 
research to reduce the risks of a contagion are two vital 
responsibilities of the Federal Government.
     My testimony today focuses on, one, the U.S. aviation 
system's preparedness to respond to communicable disease 
threats; and, two, the extent to which disease transmission on 
aircraft and in airports has been a focus of FAA research.
     Starting with our work on preparedness, the United States 
still lacks a comprehensive national aviation preparedness plan 
to limit the spread of communicable diseases through air 
travel. In December 2015 during the Ebola pandemic we 
recommended that DOT (Department of Transportation) work with 
relevant stakeholders such as the Departments of Health and 
Human Services (HHS) and Homeland Security (DHS) to develop a 
national aviation preparedness plan for communicable disease 
outbreaks. We concluded that the absence of a national plan 
undermined the ability of public health in and transportation 
sectors to coordinate on a response or to provide consistent 
guidance to airlines and airports.
     More than 4 years later, DOT is confronting an even more 
widespread public health crisis with COVID-19 without having 
taken steps to implement our recommendation. DOT and HHS 
officials agree that a national aviation preparedness plan 
could add value. However, DOT maintains that HHS and DHS have 
both the legal authority and expertise for public health and 
emergency response respectively and that these agencies should 
lead any efforts to address planning for communicable disease 
outbreaks, including for transportation.
     We continue to believe that DOT would be in the best 
position to lead this effort because DOT and FAA have stronger 
and deeper ties to, and oversight responsibility for, the 
relevant stakeholders that would be most involved in such a 
broad effort, namely, airlines, airports, and other aviation 
stakeholders. A national aviation preparedness plan can not 
only provide a way for the public health and aviation sectors 
to coordinate and more effectively prevent and control a 
threat, it could also help minimize unnecessary disruptions to 
the national aviation system, which to date have been 
significant.
     In addition, Annex 9 to an international aviation treaty, 
to which the United States is a signatory, contains a standard 
that obligates member States to establish such a plan.
     Now turning to FAA's research and development, FAA has 
sponsored limited Federal research into disease transmission 
onboard aircraft and in airports. Instead, FAA's research has 
focused on areas like reducing accidents, improving airport 
operations and airspace management, and developing new 
technologies. Such research is consistent with DOT's strategic 
goals related to safety, infrastructure, and innovation.
     Even so, FAA has funded some programs relevant to 
mitigating communicable disease transmission in airports and on 
aircraft. For example, in 2018 the Airports Cooperative 
Research Program or ACRP, which is funded by FAA's Airport 
Improvement Program, held a workshop on airports' roles in 
reducing the transmission of communicable diseases. ACRP has 
issued several reports, including guidance to airports and 
airlines on infectious disease, mitigation onboard aircraft, 
and for ways to reduce the spread of communicable disease in 
airports.
     The Centers for Disease Control within HHS, which is 
responsible for the Nation's public health, also sponsors 
health-related research involving air transportation. Such 
research, along with developing and maintaining a national 
aviation preparedness plan, is critical to ensuring the United 
States is sufficiently prepared to respond to any future 
communicable disease threat.
     This concludes my statement. I look forward to answering 
your questions.
     [The prepared statement of Ms. Krause follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
     Chairwoman Horn.  Thank you, Ms. Krause. The Chair now 
recognizes--oh, excuse me--Professor--Dr. Jones, you're 
recognized.

               TESTIMONY OF DR. BYRON JONES, P.E.,

                PROFESSOR, ALAN LEVIN DEPARTMENT

             OF MECHANICAL AND NUCLEAR ENGINEERING;

          DIRECTOR, NATIONAL GAS MACHINERY LABORATORY,

                    KANSAS STATE UNIVERSITY

     Dr. Jones.  Good morning, Chairman Johnson--Chairwoman 
Johnson, Chairwoman Horn, Committee Members, guests, I am 
pleased to be able to offer my comments to this Committee 
today. I am a mechanical engineer. I do not claim to be a 
disease transmission expert. However, I have worked extensively 
with the aircraft environmental control systems, and I believe 
I understand how they function, how virus-containing droplets 
are carried by the air within the cabin, and how ventilation 
systems flush these droplets from the cabin. Sponsors of our 
research on these topics have included the FAA, CDC NIOSH 
(National Institute for Occupational Safety and Health), and 
Boeing.
     Aircraft and air travel play two distinct roles with 
regard to disease spread during a pandemic. First, there is the 
transport of infected people throughout the world, which allows 
disease to spread across large distances. Second, there is 
transmission of disease between people within the aircraft. I 
will be addressing only the latter role, transmission within 
the aircraft cabin.
     If I can get my thing to scroll up here, with regard to 
air travel, I believe the most critical research needed in the 
near-term is collection of the data and development of the 
tools needed to be able to quantitatively assess the risk of 
COVID-19 transmission on aircraft and to be able to 
quantitatively assess the effect of various mitigation measures 
on that risk. The key word here is quantitative. Expert 
opinions are plentiful, but reliable data are scarce. The air 
transportation industry and the flying public need sound 
quantitative information about risk and the impact of 
mitigations to be able to devise and deploy the appropriate 
mitigation strategies and to make informed decisions about air 
travel.
     It is unrealistic to expect the risk of COVID-19 
transmission in aircraft to be zero in the near future. 
However, it is realistic to expect that appropriate mitigation 
measures can be taken so as to ensure the risks are comparable 
to or lower than exposure risks we face in everyday life.
     Unfortunately, we simply do not have the data nor the 
knowledge to confidently make that judgment today. We need 
these answers today, not in 2 years, not even in 6 months 
because we're not talking about a traditional research effort 
but rather an immediate, focused effort.
     The scientific community is slowly learning about how 
COVID-19 is transmitted. However, when all is said and done, 
there's a lot more that we do not know than we do know. It is 
believed that a primary means of transmission is via 
respiratory droplets that are expelled when an infected person 
coughs, sneezes, talks, or even breathes. These droplets are 
then inhaled or otherwise transferred to the respiratory system 
of an uninfected person. The largest droplets do not travel far 
from the source. However, all but the largest droplets can 
become partially or fully suspended in the air and be carried 
much further by air currents. The smaller ones can stay 
suspended more or less indefinitely and will stay in the cabin 
air until they are flushed out by the ventilation air or 
contact a surface.
     High-risk environments are those environments with high-
occupant density, extended exposure time, and poor ventilation. 
In this respect, aircraft cabins are both good and bad. 
Aircraft cabins are well-ventilated and--with a combination of 
outside air and HEPA-filtered recirculated air. One can be 
confident the air supplied to the cabin is virus-free.
     Additionally, the amount of air supplied relative to the 
volume of the cabin is very high. This high ventilation rate 
results in an exponential decrease in droplet concentration 
with distance from the source as a ventilation air flushes the 
droplets from the cabin as they spread. This exponential 
decrease has been well-characterized through FAA and CDC NIOSH-
funded research. Some small fraction of the smaller droplets 
will still be carried a number of seats from the source. 
Exposure risk presented by these droplets is not known.
     The ventilation is good on aircraft, but that is not the 
whole story. The occupancy density is higher than just about 
any other space we routinely occupy and that occupancy can 
extend for several hours or more. Operating aircraft while 
maintaining 6 feet personal distancing is not economically 
feasible. Any realistic scenario for air travel in the COVID-19 
environment will require other mitigation measures. We 
understand qualitatively how these mitigations work. However, 
as stated previously, we do not have the information needed to 
quantitatively assess the risk of transmission in aircraft and 
to assess the impact of mitigations on that risk. Ultimately, 
we need this information to be able to confidently say that air 
travel poses no greater risk of infection than other aspects of 
our daily life.
     I thank you for your attention, and I thank Congressman 
Marshall for that wonderful introduction.
     [The prepared statement of Dr. Jones follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
     Chairwoman Horn.  Thank you very much, Dr. Jones.
     Dr. Hertzberg?

                TESTIMONY OF DR. VICKI HERTZBERG,

        PROFESSOR AND DIRECTOR, CENTER FOR DATA SCIENCE,

            NELL HODGSON WOODRUFF SCHOOL OF NURSING,

                        EMORY UNIVERSITY

     Dr. Hertzberg.  Ladies and gentlemen of the Committee, 
good afternoon. First, a disclaimer. The contents of my 
testimony represent my opinion and are not the official opinion 
of the Emory University.
     Second, I'm Vicki Stover Hertzberg. I earned a Ph.D. in 
biomathematics from the University of Washington in Seattle, 
Washington, in 1980. I was on the faculty at the University of 
Cincinnati from then until 1995, and I have been on the faculty 
of Emory University since 1995. I'm Professor and I direct the 
Center for Data Science at the Nell Hodgson Woodruff School of 
Nursing of Emory University.
     Next, I review how I developed particular expertise that 
qualifies me to testify before you today. After the SARS 
pandemic in 2002 to 2004, many organizations became concerned 
about how a novel infectious agent might spread in their 
environments. There were two papers published in the medical 
literature documenting such spread for SARS or severe acute 
respiratory syndrome. One publication described how SARS spread 
in an emergency department or an E.D.
     This particular publication led to my collaboration with 
Dr. Doug Lowery-North, an emergency medicine physician. We 
studied movements of patients and staff in the E.D. at Emory 
University Hospital Midtown to determine how frequently and for 
how long patients and staff came into contact with one another, 
that being within 3 feet or a meter, in order to understand 
better how an infectious disease could spread in an E.D.
     Another publication documented SARS transmission on a 3-
hour flight from Hong Kong to Beijing because airplane cabin 
environments were of concern. Dr. Sharon Norris, the Chief 
Physician of the Boeing Company at the time, was interested in 
supporting studies of how a novel infectious agent transmitted 
by large respiratory droplets might spread among passengers and 
flight attendants or what I call the crew on an airplane.
     She approached my colleague at Georgia Institute of 
Technology, Professor Howard Weiss, an applied mathematician 
and an expert in modeling infectious disease outbreaks, who was 
also aware of our work in the E.D. Professor Weiss and I were 
funded by the Boeing Company to determine how a novel 
infectious disease might spread on an airplane, which we have 
since called the ``Fly Healthy Study.'' We quantified behavior 
and movements by passengers and crew during 10 flights across 
the country so that we could determine which pairs of 
individuals were coming into close contact as to enable 
infection transmission.
     A second goal was to document what infectious agents were 
present on airplanes. There were three major findings from our 
study. First, based on our simulations of movement, one to two 
passengers or crew member will become infected as a result of 
contact with an infectious individual on a cross-country flight 
at the probability of infection that we tested. Two, tests for 
respiratory viruses were negative for all air samples and all 
18 respiratory viruses that were tested. Three, microbial 
communities present on an airplane--on airplanes are highly 
variable from flight to flight with the vast majority of 
airplane-associated microbes being human commensals or 
otherwise nonpathogenic entities. Our findings set a baseline 
for non-crisis-level airplane cabin conditions.
     What are the implications of our findings for air travel 
in this pandemic? Our results state that if the SARS-CoV-2 
virus is as contagious as the novel agent with the transmission 
rate used in our simulations, one can expect one to two 
passengers or crew to become infected on a full flight of 
similar duration.
     Implications of this finding is significant. Unless 
airlines are willing to mandate that passengers and crew show 
up at least 4 hours in advance of a flight for nasal pharyngeal 
swabbing of all passengers and crew followed by PCR (polymerise 
chain reaction) testing for presence of the virus and to 
prevent anybody with a positive test from boarding, and if 
flights continue to be at or near capacity, there is no way to 
absolutely guarantee that SARS-CoV-2 virus will not be 
transmitted during the flight.
     What are the knowledge gaps? What are the unknown unknowns 
regarding safety of air travel and live transmission of novel 
infectious agent? First, I am not aware of good data that would 
allow us to determine an infectious rate to use in simulations.
     Two, the inverse problem needs to be solved, that is, 
given a passenger who subsequently develops disease, where was 
the infectious person likely seated?
     Three, our results are only applicable to large 
respiratory droplet transmission. We do not know about 
transmission from aerosol--that is the smaller droplets that 
are generated--or fomites--that is the physical objects that 
facilitate infection transfer between people.
     Four, our results are only applicable to time and flight 
between 10,000 feet on ascent to 12,000 feet on descent. There 
are other places along the way to traveling by air in which 
infection can be transmitted, and we know little about those 
places. These include transportation to and from the airport, 
areas traversed from check-in to the gate, passenger mingling 
in the gatehouse area, as well as at baggage claim.
     Fifth, we do not know anything about passenger behaviors 
and movements on double-aisle planes, long-haul flights, or 
flights outside the United States.
     This concludes my remarks. Thank you for the opportunity 
to testify.
     [The prepared statement of Dr. Hertzberg follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
     Chairwoman Horn.  Thank you, Dr. Hertzberg.
     At this point we will begin with our first round of 
questions, and the Chair recognizes herself for five minutes.
     Again, thank you for--to our witnesses for your testimony 
and to all of our Members for participating. As we can tell, 
this is a critically important and timely issue that we are 
addressing here.
     And it's clear that while some research has been done on 
communicable disease and transmission in aircraft, we have work 
to do, and it hasn't risen to the priority that we need to have 
progress to a national plan.
     So, I'd like to begin with Ms. Krause. Clearly, as you 
mentioned, this is not the first epidemic that our U.S. air 
transportation system has had to face, and the question becomes 
why we find ourselves ill-prepared in terms of a national plan. 
So, a couple of questions for you.
     First, how can we improve the resiliency of our air 
systems--air travel systems in response to such outbreak?
     And then, second, can you speak to the prioritization of--
and the development of a national plan, how we can expedite 
that, especially given the circumstances we find ourselves in?
     Ms. Krause.  Absolutely. I think in a--implementing our 
recommendation for DOT to develop a national aviation 
preparedness plan is the way that we can build our resilience 
for future communicable diseases. What that plan does is offer 
a scalable and adaptable framework for individual airports and 
airlines to align their efforts with and really bring some 
harmonization and a national approach to responding to future 
pandemics, so I think implementing our recommendation of DOT 
coordinating with HHS and DHS and other stakeholders is key to 
ensuring that we're prepared going forward.
     On the second part was the priority of getting this done, 
I mean, I think this is important in the sense that what we're 
seeing is when we did our work back in 2015, you had 14 
airports and three airlines with a number of different 
individual plans, and they had some good components, but given 
that it's fragmented, again, that sort of puts an emphasis on 
why it's important to develop a national aviation preparedness 
plan.
     Chairwoman Horn.  Thank you, Ms. Krause. It is clear that 
research and development is central to this. So, I'd like to 
turn to Drs. Jones and Hertzberg for the next question. You 
both noted there are unanswered questions about research and 
the implication of COVID-19 and other communicable diseases for 
air travel. And there's discussed both publicly and privately 
funded research. So, given the urgency, Dr. Jones, that you 
expressed in your testimony of prioritizing this research, I 
would--I'd like for you to speak to--from your experience your 
sense of who should be in charge of coordinating this research 
and where the Federal Government role might be, how that might 
interact with private research, and then the same question to 
you, Dr. Hertzberg.
     Dr. Jones.  OK. This is Byron Jones. I'm not sure I'm the 
one to make the decision on whether the government or private 
or who should fund the research or be in charge of the 
research. I mean, it benefits the flying public as well as the 
private industry, so I would hope to see some kind of a joint 
effort. And generally, the FAA has been the one who is taking 
the lead with anything aviation, but, I mean, this is really 
outside my role as a researcher.
     You know, in terms of the need, I think what you're--in 
the aircraft, we're going to have to have some kind of 
mitigation. We can't sit 6 feet apart, and we don't even know 
if that's far enough. So, we--you know, we really need to be 
looking at how effective--you know, a facemask is, for example, 
does it allow us to sit 3 feet apart, you know, 2 feet apart, 1 
foot apart? We just don't know that, and that's the kind of 
information we need.
     Chairwoman Horn.  Thank you very much, Dr. Jones. Dr. 
Hertzberg?
     Dr. Hertzberg.  You asked about who should be in charge 
and the funding, et cetera, I--having thought about this for a 
long time, I do think that it needs to be a true partnership 
with the public health agencies, as well as the DOT agencies 
that understand how airplanes work. We could not have done the 
work that we did without significant input from Boeing 
engineers, for instance. And we believe that that is really the 
ultimate collaborative model to engage in. We also had 
significant input from Delta Air Lines, from Homeland Security, 
et cetera.
     As for funding, there's been talk over the years of 
getting this funded in the private sector that--that I believe 
has never taken off for reasons I don't want to get into right 
now. I could speculate, but that does nobody any good.
     But in public health, it's always difficult to fund 
something that you prevented, that you've prevented, you know, 
and so that's really hard to fund something here to prevent 
this disease from happening on airplanes.
     Chairwoman Horn.  Thank you very much, Dr. Hertzberg. 
Thank you to our witnesses. The Chair--my time is expired. I 
now recognize Mr. Babin for 5 minutes.
     Mr. Babin.  Thank you, Madam Chair. Very, very 
interesting, and I appreciate all the witnesses.
     I would like to ask first to anyone who can answer this, 
how does airline travel compare to other modes of public 
transportation from a disease transmission standpoint? Some of 
these questions, I know, have already been hit on. But is it 
riskier than trains, ships, buses, or how does that healthcare 
risk compare to overall safety, including accidents, of each 
mode of transportation? Can any of you all answer that? I know 
it's quite an involved answer, but just do the best you can.
     Dr. Hertzberg.  Can I take a stab at it first?
     Mr. Babin.  Sure. Yes, ma'am. Thank you.
     Dr. Hertzberg.  I don't think that we understand as much 
as we have actually come to understand about airplanes in the 
similar way about things like trains and buses and subways and 
boats, so we don't know--we don't understand how people move 
about on them necessarily, et cetera. I think that's there have 
been a lot of publications over the years about disease 
transmission on airplanes. SARS was not the first, and it won't 
be the last. I believe there's actually papers being considered 
right now about COVID-19 being transmitted on airplanes, so--
but you don't quite see the same level of interest in, oh, I 
got it on the subway or I got it on a bus. That doesn't mean 
that it shouldn't happen.
     I will say that in assessing the bacteria and viruses that 
were present on an airplane that we looked very much like--we 
were very comparable to places that people spend a lot of time 
in, so, for instance, office buildings, schools. We actually 
looked very closely at something called the Boston subway 
study, and we compared very comparable to that in terms of what 
is present.
     Mr. Babin.  OK. Thank you. Anybody else want to take a 
stab at that?
     Dr. Jones.  Yes, this is Byron Jones. I'll take a stab at 
it as well.
     Mr. Babin.  Yes, sir.
     Dr. Jones.  The one big difference between airplanes and 
other modes of transportation is that airplanes tend to be the 
same from one airplane to the next to the next. There's not a 
lot of difference in the environmental control systems in an 
airplane and not a lot of difference in the seating density. 
You go to other transportation modes, trains can be anywhere 
from, you know, a crowded subway where everybody's crammed in 
there to a railcar that's half-full. And so it's very hard to 
generalize the comparison between aircraft and other modes of 
transportation because there's a lot of dissimilarities.
     But I guess the main thing is if you work with an 
aircraft, you know what you're working with, you know what the 
situation is, and in transportation--other transportation 
vehicle, it could be anywhere all over the map. You just don't 
know. But given this--if you have the same occupancy density, 
you have the same ventilation rate, you would expect similar 
results.
     And the other factor would be, you know, the duration of 
exposure. It's one thing to be on the subway for 5 minutes. 
It's another thing to be in an aircraft for 3 hours next to 
somebody.
     Mr. Babin.  Right. OK, thank you. I've got another 
question I want to try to sneak in first, Dr. Krause, and this 
is something people have been thinking about. The seat size and 
proximity are ways that airlines manage costs. Everyone 
understands that. If airlines reversed the recent trend of 
smaller seats that are closer together, should we expect higher 
prices? You know, when they have us spaced out on those 
airplanes, they're about 2/3 full, and that's the max, that's 
something to think about because these airlines have to make a 
profit.
     So, I'll start with you, Ms. Krause, if you don't mind.
     Ms. Krause.  No worries, thank you. No, I mean, I think 
that there is certainly--you know, airlines generate profits 
and revenues by having people in seats, so that certainly is a 
factor that comes into play in terms of reducing the number of 
seats that might be filled or adding more seats and not filling 
them, so that's certainly a factor that plays in.
     Mr. Babin.  OK, thank you. I've got about 20 seconds left 
if somebody else wants to take a stab at that.
     OK. Well, with that, Madam Chair, I'll yield back. Thank 
you so much.
     Chairwoman Horn.  Thank you, Mr. Babin.
     The Chair recognizes Chairwoman Johnson for 5 minutes of 
questions.
     Chairwoman Johnson [continuing]. Because, first of all, I 
don't know who is leading the effort to determine how the 
spacing and what have you should be on our airlines. Of course, 
that's where many of us in Congress have very personal 
questions because that is the method of which we travel to get 
back and forth to work. So, who right now is in charge of 
working with the airlines to determine what is safe and not 
safe?
     Ms. Krause.  I can jump in there, Chairwoman Johnson. This 
is Heather. I mean, I would offer that DOT and FAA generally 
defer to the CDC when it comes to passenger safety and crew 
safety. The airlines have taken a number of steps. I know that 
was mentioned earlier in terms of aligning some of their 
practices with the CDC guidance and have talked about upping 
enforcement of some of those provisions like the use of masks 
on airlines. But I think we would sort of offer that if 
passengers start to find that the experience--their experiences 
are inconsistent or confusing, that may impact their confidence 
in the system, and so that may lead to the Administration and 
Congress having to determine whether further action might be 
needed.
     I know the Administrator was at a hearing last week and 
spoke about some of the efforts that they're getting underway 
to come up with more specific recommendations and guidelines so 
that that effort is also being done, but again, I would sort of 
say it--as things start to play out, it will be up to the 
Administration and Congress to determine whether further action 
or clarification of those rules and responsibilities is needed.
     Chairwoman Johnson.  Thank you. Now, Dr. Jones and Dr. 
Hertzberg, what in your opinion are the primary research gaps 
regarding the risk of communicable disease transmission in 
airline cabins in that environment of air traffic overall?
     Dr. Jones.  This is Byron Jones. I'll take a shot at that 
first. I think the biggest thing I see in working with people 
in the airline--in the air travel industry is we just don't 
know the effect we have on that transmission when we take a 
given mitigation. So, if, for example, we put a barrier between 
the seats, we don't have the information--does that reduce the 
risk by 5 percent or 95 percent? We just don't know that. My 
question, if we require everybody to wear a mask, does that 
reduce it by 10 percent or 99 percent? We just don't know 
those. It's very difficult to get those data, and it's not an 
easy thing to do.
     We know how, once it becomes airborne, how it moves around 
the cabin, but there's just a lot of--a lot that goes on in 
that very near environment close to the person, that 
interaction. We just don't know how that goes on, and that's 
where we would expect most of the disease transmission to 
occur.
     Chairwoman Johnson.  Thank you. Dr. Hertzberg.
     Dr. Hertzberg.  I would also say that we don't know what 
role that physical objects play for transfer, so I cough into 
my hands, I get up, I walk to the back to the lavatory, and on 
the way I'm gripping the seatbacks to keep my balance. And on 
the way back to my seat I do the same thing. And then you get 
up 30 minutes later, you do the same thing on the way back to 
the back lav, and you come into contact with germs that I've 
transferred to those seatbacks. And then you touch your face, 
OK, and we don't really understand what the role of that kind 
of transmission could be in this disease. We don't understand 
too much about whether it's aerosols or large droplets, so 
there's just a lot that we don't know that's somewhat disease-
specific as well.
     Chairwoman Johnson.  Thank you very much. I think my 
time's expired. I yield back.
     Chairwoman Horn.  Thank you, Chairwoman Johnson.
     Mr. Lucas, you're recognized. Mr. Lucas, I think you may 
be muted.
     Mr. Lucas.  You would be correct as always, Madam Chair.
     Chairwoman Horn.  There you are.
     Mr. Lucas.  Thank you for helping me. Let's touch for a 
moment back on that size and seat proximity issue. As the Full 
Chairwoman noted, it's an issue very important to Members who 
travel a lot. When I first came to Congress, I was 6-4 1/2. 
Now, time and Congress has ground the half inch off of me, but 
I'm still 6-4 in those seats, and it's still a matter of 
togetherness even before the public health and safety issues.
     But isn't this an example that if we do the research, we 
make determinations about spacing, setting comfort aside, 
health issues, is this a situation where industry will expect 
Congress to set standards so that they will be implemented? 
Because, after all, it is a matter of cost control, seat 
spacing, and proximity now. And the farther we're apart, if we 
determine that's important, and I question the whole panel 
about this, won't that add to cost even though it very well may 
add to the quality of safety and certainly the quality of my 
knees?
     Dr. Jones.  This is Byron Jones. I'll jump in. I mean, 
obviously, if you reduce the seating density, you increase the 
cost. I mean, there's no getting around that. That's why it 
costs more to fly in first-class for those that have that 
opportunity. Most of us don't. In--and I think the thing to 
realize is is that it is--it will reduce the probability of 
exposure if you reduce the seating density, but to reduce it 
down to a very low level, you would have to make this seating 
density so low that it would be impractical to operate an 
aircraft in that mode economically.
     The--now, when I say--I mean, let me back up. That's 
assuming no mitigation, nobody wearing a mask, nobody's doing 
anything else at all. Just--or just in there going about your 
normal business. So, that's why I keep saying--emphasizing the 
fact that you've got to have mitigations in there to keep that 
spread from seat to seat, from person to person.
     Mr. Lucas.  Absolutely. And being the competitive industry 
it is, whatever that combination of mitigations are, if it 
increased the cost of doing business in a competitive industry, 
and airline travel is incredibly competitive, it'll have to be 
a standard implemented from the Federal level so that everyone 
will respond the same.
     Along that line, and I again ask everyone on the panel. 
You've been really impressive with your responses and insights, 
how much money in the industry as a whole are they spending on 
doing this basic research? Because, clearly, these questions 
are important to the viability of their staff. They're very 
important to the viability of their customer base. And I'm not 
asking for any particular airline, but the industry itself is 
making investments, correct? They are making those investments?
     Dr. Hertzberg.  We did our study--we were funded from 2011 
to 2014, and we got a lot of money from the Boeing Company. We 
got assistance but no money from Delta Air Lines. We continued 
to talk after our funding ended with Dr. Norris, who was the 
Chief Physician. She was thinking along the same lines about 
what about long-haul flights, et cetera? She was interested in 
studying long-haul flights, for instance, to China or to Japan. 
But the money was never forthcoming for reasons that I could 
only speculate about.
     Mr. Lucas.  Absolutely.
     Dr. Jones.  This is Byron Jones again. My experience is 
similar. We have received substantial funding from Boeing over 
the years. The airlines, I think they see themselves more as 
implementers as opposed to the people who generate the 
information that's needed. That's just my opinion.
     Ms. Krause.  And this is Heather. I would just add that my 
understanding is Boeing has talked about starting up some 
research, but I haven't seen any--an estimate of other 
investments made on research for private sector yet.
     Mr. Lucas.  Absolutely. Well, in my final moments I'll 
just simply note the world has changed; it's never going to be 
the same. And as we had our hearing earlier this year in 
Committee with a million-plus other pathogens lurking out there 
in the environment, what we do now is just necessity for the 
rest of humanity's time on this planet.
     And with that, I yield back, Madam Chair. Thank you very 
much.
     Chairwoman Horn.  Thank you very much, Mr. Lucas.
     The Chair now recognizes Ms. Lofgren for 5 minutes of 
questions.
     Ms. Lofgren.  Thank you so much, Madam Chairwoman.
     You know, it strikes me that we are very unprepared for 
this pandemic in terms of air travel and all public transit, 
that we need to have some standards that are science-based and 
that probably we're going to have to have a regulatory role in 
order to make that happen because the private sector has simply 
not done it. They haven't done the research. And even things I 
understand that just changing where the airflow comes, whether 
it's from the bottom or the top, would have an impact in terms 
of dispersal of aerosols, and yet that hasn't been done.
     When I look at not only in the aircraft themselves but in 
the airports, it's very inconsistent airport to airport where, 
clearly, disease is being transmitted. We know that for fact 
here in California. LAX had a huge incident at the very 
beginning of the pandemic.
     So, Dr. Krause, it seems to me that we ought to vest the 
research--there ought to be some public research because the 
airlines are going down. I mean, they are going down 
financially, and your description of somebody going to the 
restroom, coughing, touching all the seats, I mean, that's a 
reason why nobody wants to get on an airplane today.
     So, do you think that the university community with some 
basic research funding could quickly come up with 
implementation recommendations based on science to get at least 
a standard in place promptly before all the airlines go 
completely under?
     Ms. Krause.  Dr.--this is Heather. Dr. Hertzberg might be 
able to add some more. I would just offer that, you know, there 
is a role for Federal research in this area in terms of 
understanding the risk and transmissions, also to develop 
mitigation strategies and develop--and kind of test 
technologies. So, I'd offer that there is a Federal role to 
evaluate different options to reduce the risk. Dr. Hertzberg 
might be able to speak a little bit more to the university's 
role.
     I know that in our work that we've done in FAA R&D we 
found that, you know, there can be some opportunities for FAA 
to partner with the private sector to accelerate some research 
and do that, so that might be something to look into in terms 
of the Federal----
     Ms. Lofgren.  Well, maybe Dr. Hertzberg could comment on 
that then.
     Dr. Hertzberg.  I think that universities are full of very 
bright people and that they could, with the appropriate 
funding, come up with some answers. In terms of the science 
itself, science takes time.
     Ms. Lofgren.  Yes.
     Dr. Hertzberg.  And so it might be quickly, but quickly in 
the timeframe of science.
     Ms. Lofgren.  OK.
     Dr. Hertzberg.  That could be 2 or 3 years.
     Ms. Lofgren.  Well, when I look at, for example, looking 
not just at the aircraft but the airports, if you go to foreign 
airports, there are measures in place to detect people with 
temperatures, for example. We don't have that anywhere. We 
could do an--and we don't have to do all the research 
ourselves. Is that effective in the airports that use it? Is it 
something that we ought to implement? It doesn't look like 
anybody is in charge of doing these assessments.
     Dr. Hertzberg.  It's not a straightforward answer because 
people can be asymptomatic----
     Ms. Lofgren.  Sure.
     Ms. Hertzberg [continuing]. And have the virus and shed it 
and transmit it that way, so just taking temperatures alone is 
no guarantee.
     Ms. Lofgren.  My time is expired, Madam Chair. Thank you 
so much. I yield back.
     Chairwoman Horn.  Thank you very much, Ms. Lofgren.
     The Chair recognizes Mr. Posey.
     Mr. Posey.  Thank you very much, Madam Chair.
     This is for Ms. Krause based on her expertise and reading 
your testimony. You mentioned that there are a variety of 
technologies that could help address infectious disease 
transmission associated with air travel, but they're at various 
stages of maturity. These technologies will help much-needed 
consumer confidence that will lead to an increased air travel 
obviously.
     This is already being reflected in the travel data from 
the TSA (Transportation Security Administration). According to 
the TSA, checkpoint travel numbers for 2020 and 2019, the 
United States had its highest travel throughput of 590,456 
passengers this past Sunday. It's the highest since the start 
of the pandemic. Some of the technologies that you mentioned 
include handheld infrared thermometers by TSA agents, a mass 
screening of crowds using thermal cameras, and aircraft 
disinfection methods using heat, chemicals, and UV light. How 
promising do these screenings and disinfection methods appear 
to be to you at this point?
     Ms. Krause.  I think that's still to be determined, but 
that, again, could be a role in terms of leveraging research 
that's already out there and have been done even by some of the 
research of the folks on the panel and looking for Federal 
leadership and understanding sort of options and identifying 
options and how to make it safer, so I'd say there's still 
work--more work to be done to understand what works to mitigate 
the risks.
     Dr. Hertzberg.  The other area of concern is that if--you 
could have an airplane that's clean as a whistle, but you have 
one infected--infectious person on there and you put a lot more 
people at risk.
     Mr. Posey.  Are there other technologies in the works that 
you think look promising?
     Dr. Hertzberg.  Not that I'm acquainted with other than 
just doing rapid PCR--swabbing and doing rapid PCR on 
everybody.
     Mr. Posey.  OK. Ms. Krause?
     Ms. Krause.  At this time, no. I think it is--there's a 
number of ideas that are being floated out there and a number 
of actions that the airlines are taking, different disinfectant 
technologies. I think, again, it's all sort of research that 
needs to be further developed to understand what might best 
mitigate some of these risks.
     Mr. Posey.  Right. You mentioned that NASA (National 
Aeronautics and Space Administration), along with the FAA, in 
your testimony on how it is responsible for management with the 
Federal Government's civil aviation research and development. 
How could NASA help with identifying these technologies and 
solutions?
     Ms. Krause.  At this point we--it's not something we've 
looked into, but we'd be happy to work with you to get a better 
sense of that.
     Mr. Posey.  Yes, with NASA's expertise on spacecraft air 
quality issues--and they are working with the CDC and other 
Federal agencies--it seems like it would just really be a great 
synergy to bring them together.
     Ms. Krause.  Yes. I think it is. You're right. I think 
it's important that the aviation--the different Federal 
aviation industries--or agencies come together, as well as 
public health, that really is going to need multiple Federal 
agencies to coordinate and come up with solutions.
     Mr. Posey.  And who do you see as being the lead agency to 
kind of get this moving and get it coordinated?
     Ms. Krause.  I mean, I think at this point FAA and DOT 
have largely deferred to CDC when it comes to passenger health 
issues. Again, they're--you know, they're looking to take some 
different steps to establish some guidelines, but largely, 
they've been leaving the research--we do think that the FAA has 
a role in understanding how this research--what's out there and 
being aware of the research and figuring out how to apply it on 
aircraft, but there is a role for FAA there.
     Mr. Posey.  Thank you. I see my time is about to expire. I 
yield back, Madam Chair. Thank you.
     Chairwoman Horn.  Thank you, Mr. Posey.
     Mr. Bera, you're recognized.
     Mr. Bera.  Yes, thank you. This obviously is quite 
interesting I think to many of us in Congress because a lot of 
us are going to get on an airplane today or tomorrow to fly 
back to Washington, DC. And obviously, as a physician, I think 
a lot of us, you know, rightfully, should be concerned about 
our own health because we're all coming from, you know, 435 
districts all around the country, and then we're all going to 
fly back to our districts. And, you know, it is certainly of 
concern.
     You know, just thinking about it from a healthcare 
perspective, you know, we know a lot more about this virus than 
we did previously, right? We know that transmission is 
certainly a component of exposure to virus load, as well as a 
function of time as well and, you know, so it does give us some 
cause for concern if you're on a--you know, for me coming in 
from California, I'm going to be on long flights with that.
     There are things we can do to certainly mitigate things. 
Certainly, the science is pretty strong on face coverings, 
facemasks, reducing the spread if I'm infected, you know, to 
infecting others. We're still learning a lot about fomites and, 
you know, the transferability off of inanimate objects like 
solid surfaces, and we know different surfaces the virus 
survives for a longer period of time.
     You know, Dr. Hertzberg, your example of, you know, 
touching the seats, we do know constant handwashing and 
constant use of hand sanitizer, you know, as we--you know, 
certainly will reduce the spread of the virus to ourselves--I 
guess the question is for any of the panelists. There is some 
suggestion that for those that are traveling more frequently 
like Members of Congress, instead of just wearing the usual 
face covering or facemask, that it may be appropriate for us to 
wear N95 masks now that, you know, there's a better supply, and 
I'd just be curious if, you know, any of the panelists have a 
thought on that, whether we should suggest that Members of 
Congress actually get N95 masks that they can use on those 
travels or if we suggest that to passengers, if any of--maybe 
Dr. Hertzberg.
     Dr. Hertzberg.  N95s need to be fit-tested, and so they 
should not be worn just buying one off of Amazon and putting it 
on.
     Having said that, masks work in two ways. So, they--with 
an N95, you're filtering out particles that you're breathing 
in. But even, you know, surgical masks and cloth masks, they 
prevent you from transmitting the large droplets even as you're 
talking. And so I would--I think that masks in general are a 
great idea.
     Mr. Bera.  So, we--you know--the----
     Dr. Hertzberg.  The N95 that I'm wearing protects me----
     Mr. Bera.  Right.
     Ms. Hertzberg [continuing]. But it also protects you. The 
cloth mask I'm wearing doesn't protect me, but it protects you.
     Mr. Bera.  And, you know, again, this may have been 
touched on earlier, but it's my understanding that over recent 
years the airlines have improved their ventilation systems and 
the filters in those ventilation systems. Is that correct, any 
of the panelists?
     Dr. Jones.  This is Byron Jones. Almost universally, the 
recirculation air in the aircraft is HEPA-filtered, so you're 
not spreading disease around through the aircraft by the 
recirculation of the air. The basic functioning of the 
environmental control system is pretty much the same as it's 
been for, you know, the last 20 years or so, and the 
regulations on that haven't changed dramatically in recent 
times.
     And the thing to keep in mind is the aircraft are in 
service for a long time, so even if you start changing the way 
they're made now, for example, the Boeing 787 has a different 
system, but you're still going to have aircraft in service for 
many years.
     Mr. Bera.  Right. And just a quick last question for Ms. 
Krause. Most airlines if not all airlines are now mandating the 
wearing of face coverings. Is that correct?
     Ms. Krause.  That's--yes, that's what's been reported. I 
know that the airlines associated with the A4A in particular 
are working to use--or have masks as part of their policies.
     Mr. Bera.  Right. And it looks like I'm out of time, so 
I'll yield back.
     Chairwoman Horn.  Thank you, Mr. Bera.
     Mr. Beyer, you're recognized.
     Mr. Beyer.  Thank you, Madam Chair. I had to find my 
unmute button. And thanks so much for holding this hearing. 
It's really interesting.
     One of the major issues I was concerned with at the start 
of the pandemic was the inability of the airlines to 
effectively contact-trace passengers. And I learned that the 
U.S. Government had been pressuring airlines for years to 
collect contact information for passengers just in the case of 
this kind of contagious virus, and yet the airlines allegedly 
repeatedly refused, so we're just now coordinating a digital 
app to do this across the industry. But as the coronavirus 
spread across the United States, public health officials were 
not able to effectively contact trace.
     So, a question, Ms. Krause, in the 2015 GAO study that you 
referred to a number of times, you found that DOT would be the 
most effective in organizing a national aviation preparedness 
strategy. First question is why no progress? I saw the pushback 
that they thought maybe HHS or DHS would be better, but we are 
now 5 years later with a strong GAO study that says they should 
have putting together an aviation preparedness plan.
     Ms. Krause.  I think you hit on the reason why it is--we 
haven't seen implementation or movement on it is because DOT 
doesn't believe that they should be taking the lead. They see 
HHS and DHS as the ones that should lead and based on their 
public health and emergency preparedness responsibilities. They 
do point to some of the actions they've taken as it relates to 
COVID, things where they've facilitated calls with aviation 
stakeholders, airlines, and Federal agencies, coordinating with 
CDC on guidance from airline crew, but they don't see it as 
something that they should be taking the lead.
     We--you know, we reiterate that we feel it's important for 
them to take the lead and that they should be taking the lead 
given their long-standing relationships and deep ties to the 
aviation industry, as well as their oversight responsibilities, 
so we are looking for them to take the lead on it.
     Mr. Beyer.  It certainly makes sense. I'm always 
fascinated because you don't usually see people say, oh, I 
don't want responsibility for that. Most of us are empire-
builders. We pull things into ourselves. And certainly having 
them take the lead doesn't mean that you exclude HHS or DHS 
from the conversation or the construction.
     Ms. Krause.  Absolutely. I think that that's what makes it 
really important. I mean, there really is a need for a 
multiagency coordination effort when it comes to responding to 
communicable disease threats. I mean, you really want to have 
that coordination so you avoid confusion, inconsistencies, 
duplication of resources, and really minimize the 
inconveniences to passengers, so it's important that there is 
coordination across these agencies responding.
     Mr. Beyer.  And, Ms. Krause, don't we have a constructive 
international obligation based on the Chicago Convention, the 
Annex 19 that you mentioned?
     Ms. Krause.  Yeah, so that--as a signatory to that 
international aviation treaty, the U.S. is obligated to create 
such a plan.
     Mr. Beyer.  If I ever get a chance to meet the Chair of 
the Space Subcommittee, I'm going to recommend to her that we 
have Science Committee legislation that mandates that DOT do 
this national aviation plan, not just a GAO recommendation but 
a mandate from Congress.
     Ms. Krause.  And that--oh, sorry. I would just add that is 
something that GAO is looking to elevate to a potential matter 
to Congress is to look to Congress to direct DOT to implement 
this plan because we think it is very important.
     Mr. Beyer.  Well, you've--this hearing has been worthwhile 
in many ways but especially what you've just presented.
     So, a follow-up question, too, I opened saying we couldn't 
contact-trace airline passengers. Wouldn't that have been much 
easier if we had had this plan in place?
     Ms. Krause.  Yes, I think that we definitely see that the 
plan would have provided some opportunity to outline some of 
the coordination and roles and responsibility, as well as 
communication mechanisms. When you have a preparedness plan, 
one aspect of it that could be a benefit is testing out some of 
those communication mechanisms, as well as identifying the 
roles and responsibilities so when you get into situations 
where you need to quickly respond, you have some agreement on 
who's doing what.
     Mr. Beyer.  That's great. Thank you very much, Ms. Krause.
     Dr. Jones, I'm almost out of time, but your notion of 
showing up 4 hours ahead of time may become more plausible as 
we develop tests in the near term that will give us a result in 
30 minutes or less where you can do it with saliva or with 
blood. And I hear those are coming in the coming weeks.
     And with that, Madam Chair, I yield back.
     Chairwoman Horn.  Thank you very much, Mr. Beyer.
     Ms. Wexton, you're recognized for 5 minutes of questions.
     Ms. Wexton.  Thank you, Madam Chairwoman. And thank you to 
the witnesses for being with us today.
     I appreciate my colleague from northern Virginia 
anticipating some of my questions actually about preparedness 
and DOT's reluctance to get involved in developing these plans 
because, as luck would have it--now, I represent Dulles 
International Airport in my district, Virginia 10 here in 
northern Virginia.
     And as luck would have it, I had a Zoom call with a number 
of representatives of various worker groups at Dulles Airport 
yesterday, and they all were expressing concern about DOT's 
reluctance or inability or unwillingness to engage in this kind 
of comprehensive planning for aviation industry. So, it's--I'm 
glad that we're looking at ways to require them to do that and 
to mandate them to do that, but unless and until that happens, 
we need to look at what the other options are.
     And I'm very proud of Dulles Airport because they're one 
of 14 airports reviewed by GAO in 2015 when you looked at the 
preparedness of the U.S. aviation system in responding to Ebola 
and to communicable disease threats from abroad. And Dulles had 
independently developed a preparedness plan of their own 
despite not being required to by U.S. law.
     Ms. Krause, can you discuss what goes into an airport 
developing a plan like that, a preparedness plan, and how heavy 
of a lift is it?
     Ms. Krause.  I mean, what we found is when we looked at 
the 14 airports, including Dulles, is we assessed it against 
sort of high-level components that were--or many of them had 
the high-level components that would be outlined in Federal 
guidance and international guidance related to preparedness. I 
think that we found that the plans had varying levels of detail 
but that they were good, they had good elements in them.
     I think that they--the big piece of it is that the FAA has 
often said the some of those individual airport plans are 
focused on situations where you're dealing with one or two 
flights, you know, with infected passengers and it doesn't sort 
of support that national-level response, so I think that's 
where we feel like the national aviation preparedness plan 
would really help take those various efforts from the different 
airports and even airlines that also put together plans and 
sort of get them working harmonized in support of a national 
response.
     Ms. Wexton.  So, it's safe to say that there are 
differences between the plans that the airports have, right? I 
mean, those that even have them or had them going into this 
pandemic. But absent a national preparedness plan, how can we 
ensure that there will be adequate health and safety standards 
across all airports as they develop plans related to COVID-19?
     Ms. Krause.  I think that's really where a plan comes in 
is sort of identifying what are the things that you're looking 
to coordinate and communicate on at a national level, and then 
that can help the individual airports and airlines really align 
their plans to those efforts.
     Ms. Wexton.  Well, I hope that we come up with a national 
strategy because, you know, airports shouldn't have to--they 
shouldn't have to reinvent the wheel every single local 
airport, so--well, thank you very much. I will yield back with 
that.
     Chairwoman Horn.  Thank you, Ms. Wexton.
     And I now recognize our honorary Subcommittee Member and 
Full Committee Member Mr. Weber for 5 minutes.
     Mr. Weber.  Thank you, Madam Chair. This is a great 
hearing by the way. What a great hearing.
     Dr. Jones, I want to go to you first if I can. You said 
you're a mechanical engineer by trade, and I was an air-
conditioning contractor for 35 years. Do you know of any 
studies or any information about relative humidity in air 
cabins? In other words, the heavier the air, the more humidity, 
we call it particulate matter droplets. Do you know? Does it 
affect that?
     Dr. Jones.  It definitely has some effect on it. Two 
things. One is obviously the low relative humidity, which is 
typical in the aircraft cabin. The droplets evaporate more 
quickly, so that means they become smaller. The viral material 
and other material that's non-water-based in them would not 
evaporate, so that material stays, so they--the lighter--the 
smaller they are, the more easily they are to move about the 
cabin.
     The other thing is is that humidity has a pretty 
significant impact on the viability of the viruses, and they 
become active much more quickly in a moderate humidity range.
     On the flipside of that is is that the air turnover is so 
fast in the aircraft that we haven't seen much evidence that 
there's loss of viability once they're airborne.
     Mr. Weber.  Well, thank you for that. I want to open up 
the question for the panel. We've talked about SARS, Ebola. I 
didn't hear H1N1 in there. Was there tracing that went on back 
during those epidemics, pandemics, whatever you want to call 
them? Was there tracing back then? Dr. Hertzberg, start with 
you maybe.
     Dr. Hertzberg.  Yes, there was. There have been 
publications where they have attempted to contact passengers. 
We used a study of influenza infection on an aircraft that was 
set on a tarmac and the air system was turned off and it sat on 
that tarmac for 3 hours or something like that. And out of the 
passengers, like 75 percent of them became later infected with 
influenza. This was back in the 1970's.
     There have been other reports of H1N1 being transmitted on 
aircraft, and those have been traced. The classic study is one 
of SARS that was reported in the New England Journal of 
Medicine, a 3-hour flight from Hong Kong to Beijing, and again, 
they did contact tracing for those individuals. Of course, 
that's China, so it's a little bit different.
     Mr. Weber.  All right. How about you, Ms. Krause? Would 
you like to weigh in on that?
     Ms. Krause.  Contract tracing is an area that we're 
looking into a little bit more to understand some of the 
challenges around developing that kind of a system when it 
comes to the aviation system. I mean, I think there are 
requirements for pilots if they're seeing infected passengers 
to report it, so there is multiple agencies involved when 
you're dealing with tracing and understanding contact.
     Mr. Weber.  OK. And, Dr. Hertzberg, I'm going to come back 
to you. You talked earlier about being in contact with Boeing, 
and of course Boeing is obviously the largest airplane 
manufacturer in this country, I'm sure, but there's other 
airplane manufacturers, especially Airbus over in France, for 
example. Any input from any of those other manufacturers?
     Dr. Hertzberg.  No.
     Mr. Weber.  Not at all?
     Dr. Hertzberg.  No.
     Mr. Weber.  Have we reached out to them?
     Dr. Hertzberg.  Not to my understanding.
     Mr. Weber.  OK.
     Dr. Hertzberg.  But I'm just a little old faculty member 
here doing my job.
     Mr. Weber.  Well, I thank you for that. And then the last 
thing I want to say is I like Bill Posey's line of questioning 
about NASA. Obviously, NASA is very, very good at quarantining 
and for a lot of reasons, but any plans that anybody knows of 
to actually get NASA maybe, Chairwoman Horn, we might want to 
get some NASA people in here and talk to us, but does any of 
our panelists witnesses had conversation with NASA directly 
about that? No? Dr. Jones?
     Dr. Jones.  No.
     Mr. Weber.  And I guess, Ms. Krause, no?
     Ms. Krause.  No, but, I mean, I think that's--you know, to 
leverage whatever Federal knowledge and research is out there 
is important.
     Mr. Weber.  Yes, well, I appreciate that. All right. Thank 
you, Madam Chairwoman, for letting me ride on your coattails. I 
yield back.
     Chairwoman Horn.  Well, thank you very much, Mr. Weber. 
It's always a pleasure to have you with us on this 
Subcommittee.
     And I want--we have gone through all of the Members that 
are with us. Oh, wait, I stand corrected. I think we have one 
that has returned. Mr. Lipinski, are you here? Oh, Mr. 
Lipinski.
     Mr. Lipinski.  I was just put in. Thank you very much, 
Madam Chair, for letting me join the Subcommittee here today 
for this hearing. It's something that is critically important 
right now for us, as the Chairwoman of the Full Committee, 
Eddie Bernice Johnson, mentioned, for all of us that travel a 
lot back and forth to D.C. and other places, so the safety of 
air travel is really important.
     And, like Ms. Johnson, I'm also on the Transportation and 
Infrastructure Committee, and so this is something that we have 
been going back and forth with the FAA on in terms of the FAA 
putting requirements on for air travel, which has not really 
been--FAA has not stepped up in that. The airlines have done 
some of that voluntarily.
     But I wanted to ask on the research side here today, I 
want to ask Ms. Krause, do you believe that FAA and NIH 
(National Institutes of Health) are adequately coordinating on 
the research problems that we are discussing here today?
     Ms. Krause.  At this point, I mean, we've only had some 
really initial conversations on that topic. I'm aware of 
informal coordination that's happening but not a formal 
coordination that's happening on this topic.
     Mr. Lipinski.  And how do you think that Congress could 
better facilitate this coordination?
     Ms. Krause.  I think asking the question is important and 
sort of encouraging that that coordination occur. I mean, I 
think really leveraging all the knowledge that these different 
agencies have, and it's important in this particular instance 
to have public health as well as the aviation sector 
coordinating in terms of figuring out the risks associated and 
sort of what mitigation can occur for aviation and travel.
     Mr. Lipinski.  I wanted to ask all the panelists. Are 
there ways the Federal Government can incentivize additional 
public-private partnerships in research efforts about cabin 
safety?
     Ms. Krause.  I mean, I can start. I can start with some 
perspectives. I mean, I think when we have looked at FAA's R&D, 
they do have a number of mechanisms that they can use to--and 
that they do use to coordinate with the private sector on 
addressing R&D issues. It can also provide them an opportunity 
to collaboratively work with industry and the private sector in 
accelerating needed research, so there are some opportunities 
there.
     Dr. Jones.  Speaking from a researcher point of view, 
money always talks, and, you know, if there's some money there, 
the research will be done.
     Dr. Hertzberg.  From my experience, especially with the 
Federal agencies, when there are specific calls put out, that 
usually gets a good response to that. It takes a scientist a 
long time to prepare a proposal for something that's 
unsolicited, so I can write a proposal to the NIH or to the NSF 
(National Science Foundation), and it would take me hundreds of 
hours to do that. And based upon my discussions with the CDC, 
when we were at the end of our Fly Healthy Study and trying to 
kind of drum up more business, they were very unenthusiastic. I 
could not imagine that we could have gotten similar enthusiasm 
from the NIH or NSF, and therefore, in my own little cost-
benefit analysis I decided it wasn't--it was not going to pay 
off to submit such a proposal at that time. I might do it 
again. I might do it differently today.
     Mr. Lipinski.  Thank you. And in the little time I have 
left, Dr. Hertzberg, on a different--kind of different subject 
here in terms of not in the cabin but the safety of ground 
crew, I have Midway Airport in Chicago in my district, and, you 
know, a lot of airport workers are in my district from bag 
handlers to maintenance techs. So, Dr. Hertzberg, do you have 
any thoughts on how airport ground crew can best protect 
themselves, be protected if travelers, maybe exposed, pass 
through their workplace? So, what can we do for the ground crew 
in terms of safety?
     Dr. Hertzberg.  They should be observing physical 
distancing. They should be wearing masks. They should be 
staying well-hydrated. They should be constantly washing their 
hands and keeping their hands away from their face.
     Mr. Lipinski.  Thank you. And I want to thank all the 
witnesses for their testimony today, especially--Dr. Jones is a 
fellow mechanical engineer. I especially appreciate your work. 
But I thank all--thank you, all of our witnesses, and I thank 
the Chairwoman for allowing me to join with the Subcommittee 
today. Thank you. I yield back.
     Chairwoman Horn.  Thank you very much, Mr. Lipinski.
     And before we bring this hearing to a close, I want to 
echo my gratitude to our witnesses and all of the Members for 
this incredibly insightful and important hearing. I think that 
we have touched on and are just beginning in this critical 
place and needed action. And, Mr. Beyer, yes, I agree we should 
take some action, and I think more needs to be done. We've 
raised important issues.
     And I'm coming away with a few takeaways. Just to echo Mr. 
Lucas, that these threats will continue. There are millions and 
billions of potential threats to our health and safety, and 
from our witnesses, that we simply don't know enough right now 
about how to mitigate the spread in a quantitative way, Dr. 
Jones, that we don't have a plan, and that we don't have clear 
responsibilities, that more research is needed, interagency 
coordination is absolutely required, that the need is 
incredibly urgent and that Congress needs to act.
     I know there are number of ways that we can direct this 
research and move forward, but the timeliness and the 
criticality of addressing these issues seems to me very 
present, so I am--appreciate everyone and look forward to 
working with my fellow Committee Members on this issue to take 
action to address this and find a way forward, to incentivize 
research, R&D, to keep it going, and then make sure that there 
is a plan to increase public safety.
     And thank you again to all of our witnesses here today. 
The record will remain open for two weeks for additional 
statements from Members and for any additional questions the 
Committee may ask of the witnesses. Thank you again for your 
participation, everyone today, and the witnesses are excused, 
and we are now adjourned.
     [Whereupon, at 1:05 p.m., the Subcommittee was adjourned.]

                               Appendix I

                              ----------                              


                   Answers to Post-Hearing Questions
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


                              Appendix II

                              ----------                              


                   Additional Material for the Record
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre></body></html>
